                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                 NASA’s Compliance with the
                Improper Payments Information
                   Act for Fiscal Year 2013




                             OFFICE OF AUDITS
                                 AUDIT REPORT
IG-14-016                       APRIL 15, 2014
(A-13-019-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AFR          Agency Financial Report
CFO          Chief Financial Officer
DCAA         Defense Contract Audit Agency
FY           Fiscal Year
GAO          Government Accountability Office
IPERA        Improper Payments Elimination and Recovery Act of 2010
IPIA         Improper Payments Information Act of 2002
JPL          Jet Propulsion Laboratory
NSSC         NASA Shared Services Center
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
PAR          Performance and Accountability Report


                                                              REPORT NO. IG-14-016
APRIL 15, 2014




                                                                                       OVERVIEW

           NASA’S COMPLIANCE WITH THE IMPROPER PAYMENTS
              INFORMATION ACT FOR FISCAL YEAR 2013
                                                                                         The Issue

   Each year the Federal Government wastes billions of taxpayer dollars on improper
   payments to individuals, organizations, and contractors. An improper payment is any
   payment that an agency should not have made; made in an incorrect amount, to an
   ineligible recipient, for ineligible goods or services, or for goods or services not received;
   was duplicative; did not reflect credit for applicable discounts; or lacked adequate
   supporting documentation.1 Over the past 5 years, the government-wide improper
   payment rate has decreased to 3.53 percent in fiscal year (FY) 2013, having steadily
   declined from a high of 5.42 percent in FY 2009. In FY 2013, agencies recovered more
   than $22 billion in overpayments through payment recapture audits and other methods.2

   Congress passed the Improper Payments Information Act of 2002 (IPIA) to address the
   identification, estimation, and reduction of improper Government payments. IPIA
   requires the heads of Federal agencies annually to: (1) identify programs and activities
   susceptible to improper payments, (2) estimate the amount of improper payments, and
   (3) report these estimates and planned actions to reduce improper payments in programs
   with estimates greater than $10 million and that exceed a specific percentage of
   disbursements. The Improper Payments Elimination and Recovery Act of 2010 (IPERA)
   amended IPIA by expanding requirements for programs and activities vulnerable to
   significant improper payments and broadening recovery requirements.3 In addition,
   IPERA requires agency Inspectors General to determine whether their agencies comply
   with IPIA requirements and to evaluate the accuracy and completeness of agencies’
   reporting and performance in reducing and recapturing improper payments.

   In 2013, the NASA Office of Inspector General (OIG) issued its second report on
   NASA’s improper payment and recapture audit efforts. Similar to the results of our first
   report in 2012, we found that NASA complied with the requirements of IPIA but
   identified several areas for improvement.4 Specifically, we made three recommendations
   to improve NASA’s methodology for its IPIA and recapture audit programs, as well as its
   1
       Office of Management and Budget Memorandum M-11-16, “Issuance of Revised Parts I and II to
       Appendix C of OMB Circular A-123” (April 14, 2011).
   2
       See http://paymentaccuracy.gov/ (accessed February 10, 2014).
   3
       From this point forward, the term “IPIA” will refer to IPIA as amended by IPERA. Even though IPERA
       amends IPIA, the authorizing legislation is still named IPIA.
   4
       NASA OIG, “NASA’s Compliance with the Improper Payments Information Act for Fiscal Year 2012”
       (IG-13-011, March 14, 2013).



REPORT NO. IG-14-016
                                                                                                   OVERVIEW



     annual reporting. We also reported at the time that four of the nine recommendations
     from our May 2012 report remained unimplemented.

     In its FY 2013 Agency Financial Report (AFR), NASA reported that none of its
     programs encompassing $19.5 billion in FY 2012 disbursements were susceptible to
     improper payments.5 In addition, NASA reported performing payment recapture testing
     of FYs 2011 and 2012 disbursements on fixed-price contracts of $7.48 billion and
     identifying $40,269 in overpayments, $39,351 of which it recouped.

     In this audit, we examined whether NASA complied with the requirements of IPIA in
     FY 2013. We also evaluated the completeness and accuracy of the Agency’s IPIA
     reporting, its performance in reducing and recapturing improper payments, and its
     implementation of our prior recommendations. Details of the audit’s scope and
     methodology are in Appendix A.

     Results

     Based on our review of the FY 2013 AFR and supporting documentation, we concluded
     that NASA complied with IPIA. However, we also identified opportunities for
     improvement in NASA’s methodology and documentation for its IPIA and recapture
     audit programs, as well as its annual reporting. In addition, we closed the
     recommendations from our prior IPIA reports either because NASA had taken
     appropriate corrective action or because we refined and reissued them based on the
     results of our current audit.

     We found NASA’s IPIA contractor did not clearly document the risk factors it considered
     when assessing the risk of significant improper payments involving NASA programs or
     the basis for its conclusions. For example, the IPIA contractor did not document that it
     properly considered all risk factors required by the Office of Management and Budget
     (OMB), appeared to rely heavily on whether payments were made to beneficiaries or
     individuals, and did not consistently identify the population of programs to be assessed.

     In addition, we found that while NASA conducted recapture audits, those audits remained
     limited to fixed-price contracts, which represented only 28 percent of
     procurement-related disbursements during the reporting period. NASA excluded
     cost-type contracts, representing 69 percent, and grants and cooperative agreements,
     representing 3 percent, on the grounds that recapture audits on these vehicles was not cost
     effective. As a result, the Agency may be missing an opportunity to recover additional
     improper payments. Moreover, the documentation supporting NASA’s conclusion for
     not including grants and cooperative agreements in its recapture audits was not
     comprehensive and the Agency did not make proper notification and disclosure of its
     decision.


     5
         See http://www.nasa.gov/sites/default/files/files/FY13_NASA_AFR.pdf (accessed February 10, 2014).



ii                                                                                    REPORT NO. IG-14-016
OVERVIEW



   We also found that NASA did not account for or use a small amount of recovered
   improper payments in accordance with IPIA requirements and as a result may have
   inappropriately augmented its appropriations. Finally, we identified errors and omissions
   in NASA’s AFR that lead us to question whether NASA’s recapture audit reporting
   efforts are accurate and complete.

                                                                 Management Action

   For the past 2 years, we have made recommendations to address the quality of NASA’s
   IPIA program, specifically its risk assessment process. Although the CFO has
   implemented actions in response to our recommendations, we still have concerns
   surrounding the quality of those risk assessments. In order to improve the Agency’s IPIA
   program, we recommended that NASA’s Chief Financial Officer (CFO) consider
   performing a quantitative evaluation based on a statistical sample rather than a risk factor
   approach for its risk assessment. Alternatively, if NASA decides to continue with a risk
   factor approach, we recommended the CFO restructure the current risk assessment
   process and implement a consistent methodology to identify programs.

   To improve the Agency’s recapture audit program, we recommended the CFO reconsider
   including cost-type contract payments in the Agency’s recapture audit efforts or conduct
   a cost-benefit analysis and document the justification for excluding these payments. We
   also recommended that the CFO develop a comprehensive analysis and justification for
   the determination that inclusion of grants and cooperative agreements is not
   cost-effective, and make the required notifications and disclosures. In addition, we
   recommended the CFO develop a procedure for the treatment of recaptured funds and
   communicate this procedure to the parties responsible for posting the funds. Finally, we
   recommended the CFO consult with the Office of the General Counsel regarding the
   potentially inappropriate augmentation of its appropriation.

   In order to improve the accuracy and completeness of the Agency’s reporting of its IPIA
   and recapture audit program efforts, we recommended the CFO refine the existing
   process to collect the data necessary to complete the “Disposition of Recaptured Funds”
   table and take appropriate steps to ensure the accuracy of the data. We also
   recommended the CFO determine the appropriate universe of other sources of
   overpayments, identify the parties who would possess that information, and communicate
   with all parties to ensure they are aware of NASA’s reporting requirements and their
   responsibility for tracking and communicating the information to the Office of the CFO.
   We further recommended that the CFO determine how best to obtain this data and ensure
   it is accurately reported.

   In response to a draft of this report, the CFO partially concurred with our
   recommendations to consider performing a qualitative evaluation based on a statistical
   sample and to determine the appropriate universe of other sources of overpayments when
   reporting the Agency’s recapture audit efforts. The CFO concurred with our remaining
   recommendations related to the Agency’s risk assessment process, recapture audit


REPORT NO. IG-14-016                                                                              iii
                                                                                       OVERVIEW



     program, and reporting of its IPIA and recapture audit program efforts. We consider the
     Agency’s proposed actions to these recommendations to be responsive and will close the
     recommendations upon completion and verification of those actions.

     Although the CFO concurred with our recommendation to reconsider including cost-type
     contract payments in the Agency’s recapture audit efforts or document the cost-benefit
     analysis justifying exclusion of these payments, she argued that including cost-type
     contract payments would be duplicative of audits performed by the Defense Contract
     Audit Agency (DCAA). However, as we pointed out in our report, DCAA does not
     perform recapture audits, but rather audits that examine a contractor’s payment records to
     determine if amounts claimed comply with the terms of the award and applicable laws
     and regulations. We believe this difference supports our recommendation to include
     cost-type contracts in NASA’s recapture audit efforts. That said, we will review the
     documentation supporting the CFO’s conclusion that inclusion of these contracts is not
     cost-effective.

     We summarize the CFO’s response to each of our recommendations and evaluate those
     responses in the body of the report. Management’s full response is reprinted in Appendix
     B and their technical comments are incorporated in the report, as appropriate.




iv                                                                          REPORT NO. IG-14-016
APRIL 15, 2014




                                                        CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

   RESULTS
      NASA Complied with IPIA in FY 2013, but Improvements are
        Needed __________________________________________ 5
      Improvements Needed in NASA’s Risk Assessment Process ____ 6
      Improvements Needed in NASA’s Recapture Audit Program ___ 12
      Improvements Needed in NASA’s Annual Reporting of IPIA and
        Recapture Audit Efforts _____________________________ 18

   APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 24
      Prior Coverage ______________________________________ 25

   APPENDIX B
      Management Comments ______________________________ 26

   APPENDIX C
      Report Distribution ___________________________________ 29




REPORT NO. IG-14-016
APRIL 15, 2014




                                                                                     INTRODUCTION


Background

   The Improper Payments Information Act (IPIA) was passed in November 2002 to
   enhance the accuracy and integrity of Federal payments. IPIA requires heads of
   Executive Branch agencies to review agency programs and activities annually and
   identify those that may be susceptible to significant improper payments.6 For each
   program and activity identified as susceptible, agencies must estimate the annual amount
   of improper payments and report those estimates to Congress. Agencies are also required
   to report actions to reduce improper payments for any program in which the estimate
   exceeds $10 million. In addition, IPIA requires the Director of the Office of
   Management and Budget (OMB) to prescribe implementing guidance for agencies to help
   reduce improper payments and report on its efforts.

   As defined by OMB, an improper payment is “any payment that should not have been
   made or that was made in an incorrect amount under statutory, contractual,
   administrative, or other legally applicable requirements.”7 Improper payments may
   include payments made to an ineligible recipient or for ineligible goods or services;
   duplicate payments; payments in the incorrect amount; or payments that lack adequate
   supporting documentation and may result from inadequate recordkeeping, inaccurate
   eligibility determinations, inadvertent processing errors, lack of timely and reliable
   information to confirm payment accuracy, or fraud.

   Fiscal year (FY) 2013 marked a decade of IPIA implementation and the third year of
   implementation of the Improper Payments Elimination and Recovery Act of 2010
   (IPERA). IPERA amends IPIA by expanding the requirements for identifying,
   estimating, and reporting on programs and activities susceptible to significant improper
   payments. IPERA also includes a requirement that, when cost-effective, agencies
   conduct recapture audits for each program and activity with at least $1 million in annual
   program outlays.8




   6
       Significant improper payments are gross annual improper payments in a program exceeding both
       2.5 percent of program outlays and $10 million of all program or activity payments during the fiscal year
       reported or $100 million regardless of the improper payment error rate.
   7
       OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C of OMB Circular
       A-123” (April 14, 2011).
   8
       From this point forward, the term “IPIA” will be used to refer to IPIA as amended by IPERA. Even
       though IPERA amends IPIA, the authorizing legislation is still named IPIA.



REPORT NO. IG-14-016                                                                                               1
                                                                                            INTRODUCTION



    According to OMB, compliance with IPIA means that an agency has

           1. published a Performance and Accountability Report (PAR) or Agency Financial
              Report (AFR) for the most recent fiscal year and posted that report and any
              accompanying required materials on its website;

           2. conducted a program-specific risk assessment for each program or activity;

           3. published improper payment estimates for all programs and activities identified as
              susceptible to significant improper payments;

           4. published programmatic corrective action plans in the PAR or AFR;

           5. published, and has met, annual reduction targets for each program assessed to be
              at risk and measured for improper payments;

           6. reported a gross improper payment rate of less than 10 percent for each program
              and activity for which an improper payment estimate was obtained and published
              in the PAR or AFR; and

           7. reported information on its efforts to recapture improper payments.9

    Additionally, OMB guidance directs agency Inspectors General to

           1. evaluate the accuracy and completeness of agency reporting and performance in
              reducing and recapturing improper payments, and

           2. evaluate and report on agency efforts to prevent and reduce improper payments
              and report any recommendations for improving those efforts.10

    Prior Office of Inspector General Reviews of NASA’s Compliance with IPIA. The
    NASA Office of Inspector General (OIG) issued two previous reports on NASA’s efforts
    to comply with IPIA.11 The OIG found that NASA complied with the requirements of
    IPIA each year, but noted a number of areas for improvement and made 12
    recommendations for corrective action to management.

    Among our past findings was that NASA limited the scope of its IPIA and recapture audit
    efforts, which in turn minimized the Agency’s ability to identify, report on, and recapture
    improper payments. In response to our reports, NASA agreed to analyze and modify its
    IPIA methodology, increase the scope of its testing, improve its reporting process, and


    9
         OMB Memorandum M-11-16.
    10
         Hereafter OMB guidance refers to OMB Memorandum M-11-16, unless noted otherwise.
    11
         NASA OIG, “NASA’s Compliance with the Improper Payments Information Act for Fiscal Year 2012”
         (IG-13-011, March 14, 2013), and “NASA’s Efforts to Identify, Report, and Recapture Improper
         Payments” (IG-12-015, May 1, 2012).



2                                                                                  REPORT NO.IG-14-016
INTRODUCTION



   analyze the scope of its recapture audit efforts. We considered our recommendations
   resolved and agreed to close them once corrective actions were completed and verified.

   NASA’s FY 2013 IPIA Reporting Process. NASA began its FY 2013 IPIA process by
   querying its financial management system for all FY 2012 disbursements.12 NASA
   provided this information to a contractor who segregated the data by mission, ultimately
   identifying 152 programs in 10 mission areas.13 NASA subjected all programs with more
   than $80 million in disbursements during FY 2012 – a total of 46 – to further risk
   assessment.14

   In performing this risk assessment, the IPIA contractor stated it considered factors
   including the control environment, internal and external monitoring, programmatic and
   human capital factors, and the materiality of expenditures. NASA also considered
   programs in which payments were made to private individuals and beneficiaries as an
   additional risk factor. Based on this information and considering NASA’s history of
   positive improper payment testing results, the IPIA contractor identified none of the
   46 programs as susceptible to significant improper payments. Therefore, NASA did not
   test any of its programs to estimate an improper payment amount. This was in contrast to
   FY 2012, when NASA deemed 10 programs susceptible to significant improper
   payments. For those 10 programs, NASA reported an estimate of zero dollars of
   improper payments based on testing of disbursements.

   Additionally, similar to prior years, NASA contracted with a company to perform
   recapture audits on all fixed-price contract payments. The recapture contractor contacted
   vendors to identify whether their records indicated funds due to NASA and tested all
   payments made on fixed-price contracts during FYs 2011 and 2012 to identify duplicate
   payments, overpayments, or payments to the wrong vendor. To initiate the audit, NASA
   provided the contractor with a listing of all non-voided invoices for FYs 2011 and 2012,
   and the contractor selected for testing invoices reflecting payments associated with
   fixed-price contracts, which totaled $7.5 billion. From this subset of invoices, the
   contractor identified $40,269 in improper payments, of which NASA recovered
   $39,351.15




   12
        NASA’s Office of the Chief Financial Officer is responsible for the IPIA reporting process.
   13
        The identified mission areas were: Aeronautics Research Mission Directorate, Cross Agency Support
        Programs, Construction and Environmental Compliance Restoration, Education, Exploration Systems
        Mission Directorate, Mission Support Directorate, Office of Inspector General, Science Mission
        Directorate, Space Technology Mission Directorate, and Space Operations Mission Directorate.
   14
        This $80 million threshold assumes an improper payment error rate of 12.5 percent, which could
        potentially lead to $10 million in improper payments, the level OMB established as the threshold for
        significant improper payments.
   15
        The recapture audit contractor is compensated 25 percent of the amount recovered on fixed-price
        contracts.



REPORT NO. IG-14-016                                                                                           3
                                                                              INTRODUCTION



Objectives

    Our audit objective was to determine whether NASA complied with the requirements of
    IPIA in FY 2013. In addition, we evaluated the completeness and accuracy of the
    Agency’s reporting of IPIA data, its performance in reducing and recapturing improper
    payments, and its implementation of the recommendations made in our prior IPIA
    reports. We also reviewed internal controls related to the overall objective. See
    Appendix A for details of the audit’s scope and methodology, our review of internal
    controls, and a list of prior coverage.




4                                                                       REPORT NO.IG-14-016
RESULTS




                            NASA COMPLIED WITH IPIA IN FY 2013, BUT
                                          IMPROVEMENTS ARE NEEDED

            Based on our review of NASA’s FY 2013 AFR, website, and risk assessments, we
            concluded that NASA complied with IPIA for FY 2013. However, we identified
            opportunities for improvement in NASA’s methodology and documentation for its
            IPIA and recapture audit programs, as well as its annual reporting. The remaining
            sections of this report discuss the details of the improvements needed.

Compliance with IPIA

   The IPIA and OMB guidance set forth seven criteria agencies must meet to comply with
   the statute. As indicated in Table 1, NASA met all applicable criteria for FY 2013.

                                    Table 1. IPIA Compliance Summary
                                    Criteria for Compliance                                            Criteria Met?
    Published the FY 2013 AFR and posted it on NASA’s website                                                 Yes
    Conducted program-specific risk assessments                                                               Yes
    Published improper payment estimates for all programs and activities identified as
                                                                                                              N/A
    susceptible to significant improper payments under its risk assessment
    Published programmatic corrective action plans in the AFR                                                 N/A
    Published and met annual reduction targets for each program assessed to be at
                                                                                                              N/A
    risk and measured for improper payments
    Reported a gross improper payment rate of less than 10 percent for each
    program/activity for which an improper payment estimate was obtained and                                  N/A
    published in the AFR
    Reported information on its efforts to recapture improper payments                                        Yes
    Source: NASA OIG
    N/A – The criteria is not applicable because NASA did not identify any programs as being susceptible to significant
    improper payments.




REPORT NO. IG-14-016                                                                                                      5
                                                                                            RESULTS




                               IMPROVEMENTS NEEDED IN NASA’S RISK
                                              ASSESSMENT PROCESS

           Although we concluded NASA complied with IPIA, we identified two areas for
           improvement in its risk assessment process. First, we are concerned with the quality
           of the risk assessment and its supporting documentation. Second, NASA
           inconsistently determined the number of programs subject to a risk assessment.
           While we have closed all recommendations from prior reports, we are issuing new
           recommendations to address these issues.

Quality of Risk Assessment and the Supporting Documentation

    All agencies must institute a systematic method to perform a risk assessment to identify
    programs and activities susceptible to significant improper payments. OMB permits
    agencies two options for this assessment: (1) a quantitative evaluation based on a
    statistical sample or (2) an evaluation that takes into account risk factors likely to
    contribute to significant improper payments. NASA chose the second – a systematic
    review based on risk factors.

    If an agency uses the risk factor approach, OMB guidance requires inclusion of the
    following factors, at a minimum:

          Whether the program or activity is new to the agency.

          The complexity of the program or activity reviewed, particularly with respect to
           determining correct payment amounts.

          The volume of payments made annually.

          Whether the program or payment eligibility decisions are made outside of the
           agency, for example, by a state or local government, or a regional Federal office.

          Recent major changes in program funding, authorities, practices, or procedures.

          The level of experience, and quality of training for personnel responsible for
           making payment eligibility determinations or certifying that payments are
           accurate.

          Significant deficiencies in the audit reports of the agency including, but not
           limited to agency Inspector General or Government Accountability Office (GAO)
           audit findings, or other relevant management findings that might hinder accurate
           payment certifications.

          Results from prior improper payment work.


6                                                                          REPORT NO. IG-14-016
RESULTS



   For the past 2 years, we have made recommendations to address the quality of NASA’s
   risk assessment process. Although the CFO has implemented actions in response to our
   recommendations, we still have concerns surrounding the quality of that process.
   Specifically, in FY 2013, we found NASA’s IPIA contractor did not clearly document the
   risk factors it considered when assessing NASA’s programs and are therefore concerned
   that the contractor did not review each of the OMB-required factors. Further, the
   contractor’s supporting documentation did not provide the basis for its conclusions.
   Given that OMB permits more than one way to perform a risk assessment and NASA
   continues to struggle performing a comprehensive and quality risk assessment using risk
   factors, we believe using the quantitative statistical sample approach, which is more
   structured and less subjective, may be a better approach for NASA.

   Risk Factors. The firm contracted by NASA to perform its risk assessment (hereafter
   referred to as the IPIA contractor) described using only three risk factors in its
   evaluation: (1) disbursement materiality (set at $80 million); (2) recent findings from
   OIG and GAO audit reports; and (3) programs with payments made to private individuals
   and/or beneficiaries in its project work plan, risk assessment report, and final
   management report. This information was consistent with the information included in
   NASA’s FY 2013 AFR.

   Upon inquiry, the IPIA contractor told us that it had actually considered all of the
   OMB-required risk factors, and subsequently provided us with a document supporting
   this statement that included a list of the documents reviewed. However, the contractor
   had not assigned a quantitative or qualitative risk rating to the various factors.16 In
   addition, the contractor acknowledged that it had not documented the conclusion for each
   risk factor for the programs that met the materiality threshold and thus ultimately how it
   determined that no programs were susceptible to significant improper payment.

   In addition to the lack of adequate documentation of its decision-making process, the
   contractor’s conclusion appears to have been heavily dependent on whether program
   payments were to private individuals and/or beneficiaries. The contractor assessed the
   potential that the programs made payments to individual and/or beneficiaries based on its
   understanding of the programs and identified six programs as potentially making such
   payments. The contractor then tested a limited number of disbursements from each of the
   six programs to confirm whether the payee was an individual or beneficiary. Based on
   the test results, the contractor found that none of the programs made payments to
   beneficiaries and any payments made to private individuals were associated with
   contracts or purchase orders. Aside from this factor and a review of audit reports, we
   were not convinced programs above $80 million were subjected to any other risk factors
   before the contractor concluded that no programs were susceptible to significant
   improper payments.

   16
        A risk assessment methodology typically includes an assessment approach (e.g., quantitative, qualitative,
        or semi-qualitative) that specifies the range of values those risk factors can assume during the risk
        assessment and how combinations of risk factors are identified and analyzed so that values of those
        factors can be functionally combined to evaluate risk.



REPORT NO. IG-14-016                                                                                                7
                                                                                           RESULTS



    The IPIA contractor told us that, although payments to private individuals and
    beneficiaries is not one of the OMB-required factors, this factor was considered because
    programs in which such payments are made are known to be susceptible to a high risk of
    improper payments based on the “high error” programs identified by OMB on the
    payment accuracy website for FY 2012.17 According to this website, high-error programs
    are those that reported roughly $750 million or more in improper payments in a given
    year, did not report an error amount in the current reporting year but previously reported
    an error amount over the threshold, or have not yet established a program error rate and
    have measured components that were above the threshold. No part of the criteria
    contains the factor that payments are made to certain types of recipients.
    While the programs designated as high-error by OMB customarily make payments to
    individuals and beneficiaries, NASA’s programs are different from those designated
    programs. Thus, heavily focusing NASA’s risk assessment on characteristics common to
    those designated programs may not identify NASA programs susceptible to significant
    improper payments.
    Review of Audit Reports. The IPIA contractor’s risk assessment report indicated it
    reviewed 20 audit reports issued by the GAO, OIG, or NASA. For each report reviewed,
    the IPIA contractor identified the associated program and summarized the findings and
    recommendations. However, in its report, the contractor did not specify the rationale for
    why the findings in each of the reports did or did not result in the identification of a
    potentially high-risk program. The results section of the report identified two potentially
    high-risk programs based on two OIG reports. However, the AFR reported no programs
    as high risk. We found no explanation in the IPIA contractor’s documentation that
    explained why those two programs were not determined to be high risk for reporting
    purposes, however, the contractor verbally communicated the rationale.

    We noted that the IPIA contractor’s summary of two other reports referenced findings of
    questioned, unallowed, and unsupported costs or inadequate oversight over expenditures.
    Because any of these findings could be an indicator of a program susceptible to improper
    payments, we requested documentation supporting the rationale for not including the
    programs identified in those reports as high risk in the contractor’s risk assessment report.
    The contractor responded with a high-level explanation of the rationale and referenced
    the risk assessment report as supporting documentation. After we pointed out that the
    risk assessment report did not include the requested information, the contractor provided
    a document similar to that report containing an additional column with the rationale.
    This document indicated that for the two audit reports the potential improper payments
    mostly referenced the associated mission directorate and not specific programs.
    Therefore, the IPIA contractor did not consider the results of the audit adequate to assess
    a program susceptible to significant improper payment.

    The IPIA contractor acknowledged that it made no additional inquiries to determine the
    identity of the specific programs referenced in the audits. One of the OIG reports

    17
         See http://www.paymentaccuracy.gov/ (accessed March 12, 2014).



8                                                                            REPORT NO. IG-14-016
RESULTS



   identified the relevant contract, grant, or cooperative agreement number, while the other
   did not. However, upon inquiry, the OIG would have provided the omitted award
   numbers. Then the IPIA contractor could have easily queried NASA’s financial
   management system to identify the associated program for each award number.

Inconsistent Combining of Programs

   Agencies are required by law to review all programs they administer and identify those
   that may be susceptible to significant improper payments. According to OMB, the “term
   ‘program’ includes activities or sets of activities recognized as programs by the public,
   OMB or Congress, as well as those that entail program management or policy direction.”
   This definition includes the activities engaged in by the agency in support of its
   programs, and each agency has flexibility in identifying the programs it administers.
   NASA identifies most Agency programs based on codes in its financial management
   system traceable to the President’s annual budget. However, in prior years, NASA
   combined some program codes together to establish a “program” for risk assessment
   purposes. These programs were cross-cutting administrative areas that supported all
   programs and missions within NASA. Specifically, in FY 2012, NASA combined
   27 program codes into a single program labeled “Institutions and Management” and
   combined 7 other program codes into a single program labeled “Education.”

   When reviewing the programs identified in the FY 2013 risk assessment process, we
   noted that NASA had not combined the individual program codes into Education and
   Institutions and Management as it had in FY 2012. The IPIA contractor initially told us
   that the program identification procedures had not changed from prior years and that all
   programs identified in FY 2013 were the same as those identified in prior years.
   However, in subsequent communications, the IPIA contractor confirmed that the
   Agency’s methodology had changed, explaining that although some individual programs
   would not meet NASA’s materiality threshold for further risk assessment under the
   revised approach, individual programs would be selected for further assessment on a
   rotational basis based on qualitative factors. This change in methodology resulted in
   NASA subjecting fewer expenditures to a risk assessment in FY 2013. For example, the
   Agency did not subject any of the Education program’s $164 million in expenditures to
   further risk assessment. Further risk assessment may have identified the Education
   program as being susceptible to significant improper payments.




REPORT NO. IG-14-016                                                                           9
                                                                                              RESULTS



Status of Prior Year Recommendations

     As shown in Table 2, we have closed all recommendations from prior reports.

                Table 2. Status of Prior Year Recommendations – IPIA Program
        Report and
      Recommendation                     Recommendation                              Status
          Number
                          Require that NASA program managers provide          Closed – NASA
      IG-12-015,          updated and accurate program information to         changed its risk
      recommendation 2    allow for the performance of a comprehensive risk   assessment
                          assessment.                                         methodology.
                          Include the Jet Propulsion Laboratory (JPL) in      Closed – JPL is now
      IG-12-015,          NASA’s IPIA review and assess the risk of           included in the risk
      recommendation 3    improper payments by and to JPL consistent with     assessment
                          the methodology used for other NASA programs.       methodology.
      Source: NASA OIG.




Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     In order to improve the Agency’s IPIA program, we recommended that the Chief
     Financial Officer (CFO) take the following actions:

     Recommendation 1. Consider using as the basis for its risk assessment a quantitative
     evaluation based on a statistical sample rather than the current risk factor approach.

        Management’s Response. The CFO partially concurred, stating her office will
        continue to utilize its current risk assessment approach for its programs, evaluate
        NASA’s payment process internal control environment, and consider using
        quantitative techniques, as appropriate, by September 30, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of those actions.




10                                                                            REPORT NO. IG-14-016
RESULTS



   Recommendation 2. If risk assessments continue to be risk factor-based, restructure the
   process to ensure all OMB-required factors are included, review all available
   documentation when addressing the risk factors, and prepare comprehensive
   documentation that clearly supports the conclusions reached.

      Management’s Response. The CFO concurred, stating that her office will continue
      to use all of the OMB-required factors as well as other risk factors NASA deems
      appropriate. The CFO stated that the conclusions will be fully documented by
      September 30, 2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.

   Recommendation 3. Implement a consistent methodology to identify programs for
   purposes of performing annual risk assessments.

      Management’s Response. The CFO concurred, stating that for FY 2014 and beyond
      her office will document and execute a detailed methodology that identifies how
      programs will be evaluated for the purposes of performing the annual risk assessment.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.




REPORT NO. IG-14-016                                                                          11
                                                                                          RESULTS




                       IMPROVEMENTS NEEDED IN NASA’S RECAPTURE
                                                AUDIT PROGRAM

            Consistent with our findings in prior years, NASA continues to limit its annual
            recapture audits to fixed-price contracts and exclude from testing cost-type contracts
            – expenditures that account for almost 70 percent of all NASA procurement-related
            spending. In addition, although the Agency also excluded grants and cooperative
            agreements, which is an additional 3 percent, its documentation of the reasons for
            this decision and notification regarding it was lacking. While we have closed all
            recommendations from prior reports, we are issuing new recommendations to
            address these issues.

Scope of NASA’s Recapture Efforts Limited

     As we reported was the case the last 2 years, NASA continued to exclude cost-type
     contracts from its recapture audits in FY 2013. By only including fixed-price contracts,
     NASA bypasses review of almost three-quarters of Agency procurement-related
     expenditures, thereby increasing the risk that improper payments may go undetected. Of
     the population of procurement-related disbursements during the reporting period,
     cost-type contracts accounted for 69 percent, while fixed-price contracts totaled
     28 percent. In addition, fixed-price contracts typically provide the lowest risk of
     improper payments because they are generally not subject to fluctuations in contractor
     costs. As in past years, NASA also continued to exclude grants and cooperative
     agreements from recapture audits, concluding that payment recapture audits would not be
     a cost-effective method for identifying improper payments in these vehicles. We
     identified several issues with the notification and documentation supporting that decision.

     Exclusion of Cost-Type Contracts. OMB guidance permits agencies to exclude certain
     programs and activities from a recapture audit program if they determine that their
     inclusion would not be cost-effective. The agency must notify OMB and its agency
     Inspector General of this decision and include any analysis used by the agency to reach
     this decision. For the last several years, NASA has asserted that the inclusion of
     cost-type contracts was not cost-effective, arguing that the Defense Contract Audit
     Agency (DCAA) audits contractors who do business with NASA and those audits focus
     primarily on cost-type contracts. Therefore, NASA concluded that inclusion of this type
     of contract in its recapture audit effort would be duplicative. NASA notified OMB and
     the OIG of this decision and its underlying reasoning in its January 2011 recapture audit
     plan but noted that the Agency planned to consider expanding the scope of its recapture
     audits by adding additional payment categories in order to increase the amounts
     collected.




12                                                                          REPORT NO. IG-14-016
RESULTS



   In response to our prior year recommendation, NASA agreed to reconsider whether
   cost-type contracts would be included in its recapture audit efforts but again concluded in
   FY 2013 that the DCAA audits are adequate and including these contracts in recapture
   audits would be duplicative. The OIG continues to believe that NASA’s decision to
   exclude cost-type contracts from its recapture audit efforts is inappropriate and increases
   the risk that improper payments are not timely identified and recaptured.

   OMB guidance states that “payment recapture auditing activities should not duplicate
   other audits of the same (recipient or agency) records that specifically employ payment
   recapture audit techniques to identify and recapture overpayments” (emphasis added).
   However, in response to a 2013 letter from the Office of the Chief Financial Officer
   (OCFO) requesting data concerning overpayments, DCAA stated that it does not perform
   recapture audit services. Rather, DCAA performs post-award audits that examine the
   accounting and financial records of payment recipients to determine if amounts claimed
   comply with the terms of the award or contract and applicable laws and regulations. In
   contrast, in a payment recapture audit the auditor reviews an agency or program’s
   accounting and financial records, supporting documentation, and other pertinent
   information supporting payments to identify potential overpayments. We believe this
   difference supports our contention that the inclusion of cost-type contracts in NASA’s
   recapture audit efforts would not be duplicative of DCAA’s efforts.

   In FY 2013, as an additional reason to exclude cost-type contracts, NASA asserted that
   the results of its prior years’ improper payment testing under IPIA (which included tests
   of disbursements on cost-type contracts) had not yielded any significant improper
   payments. However, since the testing required by IPIA and recapture audits are not the
   same, the results of IPIA testing do not automatically equate to evidence that exclusion of
   cost-type contracts from recapture audits would be appropriate. As explained in OMB
   guidance, for IPIA testing an agency evaluates a small number of payments in a program
   or activity to determine if they were improper. In contrast, payment recapture audits are
   not statistical samples but targeted examinations of high-risk payments the Agency may
   likely collect in a cost-effective manner.

   To our point, we found that when contract types other than fixed-price were inadvertently
   included in the data the recapture auditor analyzed, the auditor sometimes identified
   improper payments in those contracts. Specifically, of the $40,269 in improper payments
   identified by the recapture auditor for the current reporting period, $5,171, or
   12.8 percent, was associated with those other contracts, and NASA recovered 82 percent
   of the overpayments. Again, we believe this example underscores our position that
   NASA can identify and recover improper payments if it subjects cost-type contracts to
   recapture audit efforts.

   Documentation and Notification of Exclusion of Grants and Cooperative
   Agreements. While OMB guidance requires agencies to consider all programs and
   activities expending $1 million or more annually for payment recapture audits, they may
   exclude payments from certain programs and activities if they determine that recapture
   audits are not a cost-effective method for identifying and recapturing improper payments.


REPORT NO. IG-14-016                                                                             13
                                                                                                             RESULTS



     OMB guidance stipulates that in such cases agencies must take several actions, including
     notifying OMB and their Inspectors General of the decision, providing them with the
     analysis used to reach the decision, and reporting in the AFR the program or activity
     excluded and a description of the justification and analysis used to make that
     determination. While OMB suggests criteria for consideration when performing this
     analysis, agencies have the discretion to determine the most relevant criteria.

     The OIG received written notification of NASA’s decision to exclude grants and
     cooperative agreements from recapture audits; however, we found the notification not
     comprehensive. In its justification, NASA cited only that grants and cooperative
     agreements were included in the sample of payments tested under its IPIA testing in the
     prior year and that no improper payments had been identified. NASA did not provide
     OMB with its decision or the full supporting analysis to exclude this population from
     recapture audits. Furthermore, NASA did not disclose its exclusion of grants and
     cooperative agreements in its FY 2013 AFR or provide a description of the justification
     and analysis used to support that decision.

Appropriateness of Disposition of Funds Recaptured

     OMB guidance stipulates that agencies may use recaptured funds in a variety of ways
     depending on the nature and timing of their recovery, including as reimbursement for
     actual expenses incurred for administration of the recapture audit program, paying
     contractors for payment recapture audit services, and using the funds for their original
     purpose. Use of these funds, however, is dependent on when the overpayment was
     funded (i.e., before or after enactment of IPERA) and the status of the appropriation (i.e.,
     active, expired, or closed) from which the overpayment was funded.18 OMB guidance
     stipulates that for “funds that were appropriated prior to IPERA’s enactment but which
     have expired, the remainder of the recovered funds (after reimbursing the agency and
     paying the contractor) should be returned to Treasury as miscellaneous receipts.” OMB
     guidance further states that if amounts recovered were from expired funds appropriated
     after enactment of IPERA, then, after reimbursing the agency and paying the contractor,
     agencies may use recovered amounts for specific purposes up to set limits and return any
     amount over those limits to Treasury as miscellaneous receipts. The specific purposes
     and limits include up to 25 percent for a financial management improvement program, up
     to 25 percent for the original purpose, and up to 5 percent for Inspector General activities
     related to the law’s requirements.

     NASA primarily recovered amounts from appropriations that had expired and
     appropriated both before and after the enactment of IPERA. Most of the time, NASA
     18
          On September 30 of the fifth fiscal year after the period of availability for obligation of a fixed
          appropriation account ends, the account is considered “closed” and any remaining balance (whether
          obligated or unobligated) in the account shall be canceled and thereafter shall not be available for
          obligation or expenditure. After the end of the period of availability for obligation of a fixed
          appropriation account and before the closing of that account, the account is considered “expired;” retains
          its fiscal year identity; and remains available for recording, adjusting, and liquidating obligations
          properly chargeable to that account.



14                                                                                           REPORT NO. IG-14-016
RESULTS



   returned the recaptured amount minus the amount paid to the recapture auditor to the
   original appropriation. However, we noted several errors in NASA’s treatment of
   recovered funds.

   First, NASA did not take into consideration the percentage limitations, instead returning
   the remainder to the original appropriation. Second, in two cases totaling $135, NASA
   returned the monies to a different appropriation with a different purpose, and by doing so
   may have inappropriately augmented its appropriations and potentially violated the
   Antideficiency Act.19 Third, by returning the funds to an original appropriation that had
   expired and is no longer available for obligation, NASA did not retain the money for the
   original permitted purpose. When recaptured funds are to be used for the original
   purpose, OMB guidance states that “funding shall be credited to the appropriation or
   fund, if any, available for obligation at the time of collection for the same general
   purposes as the appropriation or fund from which the overpayment was made, and shall
   remain available for the same period of availability and purposes as the appropriation or
   fund to which credited.”

   We computed how the money should have been used assuming NASA (1) used the funds
   to pay recapture audit fees when permitted, (2) returned the full monies to Treasury when
   required because the appropriation had expired and the appropriation was pre-IPERA, (3)
   opted to use the funds for its original purpose (limited to 25 percent when permitted), and
   (4) made 5 percent available to the Inspector General when permitted. Table 3 compares
   our calculations against how NASA actually used the funds.

                                   Table 3. Disposition of Funds Comparison
                Use of Recaptured Funds                              Per OIG                      Per NASA
    Payment recapture auditor fees                                             $8,703                          $8,703
    Original purpose                                                            2,994                          30,228
                               a
    Returned to Treasury                                                       27,055                              285
    Available to Inspector General                                                 599                                  -
    Different purposeb                                                                -                            135
    Total                                                                     $39,351                         $39,351
    Source: OIG Analysis of NASA data.
    a
         $20,857 was from pre-IPERA expired funds and thus the balance, after contractor fees, was to be returned to
         Treasury. $285 was from pre-IPERA cancelled funds and thus the entire amount was to be returned to Treasury.
    b
         Not allowable per OMB guidance.




   19
        31 U.S.C. §§ 1341(a), 1342, or 1517(a).



REPORT NO. IG-14-016                                                                                                        15
                                                                                            RESULTS



Status of Prior Year Recommendations

     As shown in Table 4, we have closed all recommendations from prior reports.

         Table 4. Status of Prior Year Recommendations – Recapture Audit Program
         Report and
       Recommendation                    Recommendation                            Status
           Number
                            Analyze and document the feasibility of
                            expanding the scope of the Agency’s             Closed – Incorporated
      IG-12-015,
                            recapture audits beyond fixed-price contracts   in current year
      recommendation 8
                            to include other payments such as grants and    recommendation 5
                            cooperative agreements.
                            Reconsider including cost-type contract       Closed – Incorporated
      IG-12-015,
                            payments in the Agency’s recapture audit      in current year
      recommendation 9
                            efforts and document any determinations made. recommendation 4
      Source: NASA OIG.



Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     In order to improve the Agency’s recapture audit program, we recommended the CFO:

     Recommendation 4. Reconsider including cost-type contract payments in the Agency’s
     recapture audit efforts. If NASA determines this proposal is not cost-effective, the CFO
     should document the justification for excluding these payments, including demonstrating
     that the costs associated with recovering the funds are projected to be greater than the
     amount recovered.

        Management’s Response. The CFO concurred, stating NASA will continue to
        evaluate its procure-to pay-process and recapture audit program. However, she stated
        that the results of NASA’s past improper payment and quality assurance reviews,
        coupled with DCAA audits of cost-type contracts, demonstrate that NASA’s
        procure-to-pay process is not susceptible to a risk of significant improper payments.
        As such, the Agency has determined that its current risk posture does not warrant an
        expansion of its recapture audit program. NASA will provide documentation
        supporting its conclusion by September 30, 2014.

        Evaluation of Management’s Response. Although the CFO concurred with our
        recommendation to reconsider including cost-type contract payments in the Agency’s
        recapture audit efforts or document the cost-benefit analysis justification for
        excluding these payments, she argued that including cost-type contract payments
        would be duplicative of the audits DCAA performs of NASA contractors. However,



16                                                                            REPORT NO. IG-14-016
RESULTS



      DCAA does not perform recapture audits, but rather post-award audits that examine
      the payment records of contractors to determine if amounts claimed comply with the
      terms of the award and applicable laws and regulations. We believe this difference
      supports our recommendation to include cost-type contracts in NASA’s recapture
      audit efforts. That said, we will review the CFO’s documentation supporting her
      conclusion that inclusion of these contracts is not cost-effective. Therefore, we
      consider the recommendation resolved and will close it upon reviewing the
      justification provided.

   Recommendation 5. Develop a comprehensive analysis and justification for its
   determination that inclusion of grants and cooperative agreements in recapture audit
   efforts is not cost-effective, provide OMB and OIG the determination and the analysis
   used to support the determination, and include the required disclosures in the AFR.

      Management’s Response. The CFO concurred and indicated that NASA has
      performed a comprehensive analysis and will share the results with OMB and OIG.
      She also stated that the required disclosures will be included in the FY 2014 AFR.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.

   Recommendation 6. Develop a procedure describing the appropriate uses for recaptured
   funds and communicate this procedure to the parties responsible for posting the
   recaptured funds in NASA’s financial management system.

      Management’s Response. The CFO concurred, stating procedural documentation
      will be updated and provided to parties responsible for posting recaptured funds by
      September 30, 2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.

   Recommendation 7. Consult with the Office of the General Counsel to determine
   whether the application of funds for purposes other than the original appropriation
   resulted in an inappropriate augmentation to NASA’s appropriations.

      Management’s Response. The CFO concurred and stated that her office will consult
      with the Office of the General Counsel to determine whether recaptured funds were
      applied appropriately.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.


REPORT NO. IG-14-016                                                                        17
                                                                                                 RESULTS




                                 IMPROVEMENTS NEEDED IN NASA’S ANNUAL
                                 REPORTING OF IPIA AND RECAPTURE AUDIT
                                                               EFFORTS

                Although NASA included the required information on its IPIA and recapture audit
                efforts in its FY 2013 AFR, we noted errors that affect the accuracy and
                completeness of that information. These errors related to the reporting of the
                disposition of recaptured funds and overpayments recaptured from other sources. In
                FY 2012, we noted similar errors in NASA’s reporting and have closed the prior
                recommendations and issued new recommendations to address these issues.

Inaccuracies in NASA’s Annual Reporting

     We identified errors in NASA’s reporting of the disposition of recaptured funds and
     overpayments recaptured from other sources.

     Inaccurate Reporting of the Disposition of Recaptured Funds. OMB guidance
     requires agencies include specific information regarding improper payments and the
     recapture of such improper payments in the annual PAR or AFR.20 One of the required
     tables – “Disposition of Recaptured Funds” – details how the recaptured funds were used.
     As noted previously, such funds may be used in a variety of ways depending on the
     circumstances, including reimbursing the agency for actual expenses incurred for the
     administration of the recapture audit program, paying contractors for payment recapture
     audit services, and using the funds for their original purpose.

     NASA reported in its FY 2013 AFR that it had recaptured $39,351; however, the Agency
     reported a total of $48,126 in the Disposition of Recaptured Funds table. The table below
     shows the amounts NASA reported versus the actual disposition of the amounts
     recovered based on the documentation provided to us during the audit. Table 5 shows
     that the amount reported in several columns was incorrect and that NASA returned a
     small amount ($135) to an appropriation not in keeping with OMB guidelines.




     20
          OMB Circular A-136, “Financial Reporting Requirements,” October 21, 2013.



18                                                                                    REPORT NO. IG-14-016
RESULTS



                                   Table 5. Disposition of Funds Analysis
              Use of Recaptured Funds                        Per AFR                Actual         Variance
    Administration of the program                                          -                   -                 -
    Payment recapture auditor fees                                  $8,775               $8,703                $72
    Financial management improvement                                       -                   -                 -
    activities
    Original purpose                                                39,066               30,228           8,838
    OIG                                                                    -                   -                 -
    Returned to the U.S. Treasury                                      285                   285                 -
                           a
    Different purpose                                                      -                 135          (135)
    Total                                                         $48,126               $39,351         $8,775
    Source: OIG analysis of NASA data
    a
        Not a reportable category in the AFR as it is not allowable per OMB guidance.

   Inaccurate Reporting of Overpayments Recaptured from Other Sources. OMB
   requires agencies to report on improper payments identified and recovered through
   sources other than payment recapture audits. Examples of other sources include
   statistical testing under IPIA; agency post-performance reviews or audits; OIG reviews,
   audits, and investigations; and Single Audit reports.

   NASA requested information from various offices within the Agency in order to
   complete the “Overpayments Recaptured Outside of Payment Recapture Audits” table in
   its FY 2013 AFR and reported identifying $44,567 in a prior year that was recaptured in
   the current year. Based on our review of the documentation, we determined that the
   amount was actually identified in the current year and recovered in a period not included
   in NASA’s AFR. This error affected the prior year, the current year, and cumulative
   amounts reported.

   Incomplete Reporting of Overpayments Recaptured from Other Sources. Even
   though the OCFO indicated receiving negative responses from all parties except the OIG
   to its data call regarding overpayments from other sources, our own limited inquiries
   identified additional amounts that should have been reported as overpayments. 21 For
   example, $1,482 reported as a questioned cost in a Single Audit report of a NASA
   contractor was sustained by NASA management in FY 2012 but not yet returned and thus
   should have been reflected as an identified overpayment. For the same contractor,
   another $8,470 was identified and collected in FY 2011 as the result of a Single Audit
   report for a prior year and also not reported. In addition, $1,825 previously reported as a
   questioned cost in a Single Audit report of a NASA grantee was sustained by NASA

   21
        FY 2011 referred to the prior year and FY 2012 referred to the current year for the reporting period
        related to this table within the FY 2013 AFR.



REPORT NO. IG-14-016                                                                                                 19
                                                                                                             RESULTS



     management and returned to NASA in FY 2011, and thus should have been reflected as
     identified and recovered in the prior year. In the cases involving Single Audit reports, we
     obtained the information from contracting officers who said the OCFO had not contacted
     them to obtain this information and that they were unaware of the reporting requirement.

     In addition to Single Audit reports, DCAA audits of NASA contractors are another
     potential source of overpayments identified and recaptured from sources other than
     recapture audits.22 We recognize not all questioned costs included in these reports may
     equate to overpayments; however, questioned costs of a direct nature claimed on a NASA
     contract would be an identified overpayment when the Administrative Contracting
     Officer made the decision to sustain the questioned cost. As part of this year’s review,
     we reviewed 22 DCAA audit reports, 5 of which contained questioned costs of a direct
     nature. For each of the 5 reports, we were unable to determine whether the
     Administrative Contracting Officer had made a decision to sustain the questioned costs.
     Therefore, we were unable to ascertain if the questioned cost from the DCAA reports
     should have been reported in the table.

     Several recipients of the OCFO’s data call cited a lack of communication on the
     information OCFO was requesting in its data call. For example, we identified
     approximately $6 million that could have been jointly reported by the OIG’s Office of
     Investigations and NASA’s Acquisition Integrity Program. While the Office of
     Investigations received the data call, the request contained little information about the
     data requested, and consequently the OIG did not provide all responsive information.
     Moreover, the OCFO did not contact the Acquisition Integrity Program and that Program
     was unaware of the OCFO’s data call.

     Another common theme voiced by a number of recipients of OCFO’s data call was the
     assumption that the NASA Shared Services Center (NSSC) tracked the identification and
     collection of all overpayments. In fact, the NSSC tracks only overpayments and
     collections that result from recapture audits in which it issues a bill for collection.




     22
          As reported in an earlier finding, cost-type contracts are excluded from NASA’s recapture audit efforts.



20                                                                                           REPORT NO. IG-14-016
RESULTS



Status of Prior Year Recommendations

   As shown in Table 6, we have closed all recommendations from prior reports.

                Table 6. Status of Prior Year Recommendations - Reporting
     Report and
   Recommendation                       Recommendation                                  Status
       Number
                       Establish a process to collect the data necessary to
   IG-13-011,                                                                    Closed –
                       complete the “Disposition of Recaptured Funds”
   recommendation 1                                                              Implemented.
                       table.
                       Refine its existing process to collect the data
                                                                                 Closed – Incorporated
   IG-13-011,          necessary to complete the “Overpayments
                                                                                 in current year
   recommendation 2    Recaptured Outside of Payment Recapture
                                                                                 recommendation 9.
                       Audits” table.
                       Develop and disseminate guidance to all parties
                       who participate in the collection and preparation of
                       the required tables to instruct the parties on the data   Closed – Incorporated
   IG-13-011,
                       needed, the potential sources of the data, and from       in current year
   recommendation 3
                       whom it should be collected to ensure that the            recommendation 10.
                       information reported complies with OMB Circular
                       A-123, Appendix C and OMB Circular A-136.
   Source: NASA OIG.




Recommendations, Management’s Response, and Evaluation of
  Management’s Response
   In order to improve the accuracy and completeness of NASA’s reporting of its IPIA and
   recapture audit program efforts, we recommend the CFO do the following:

   Recommendation 8. Refine existing processes to collect the data necessary to complete
   the “Disposition of Recaptured Funds” table and take appropriate steps to ensure the
   accuracy of the data.

       Management’s Response. The CFO concurred and stated that enhancements will be
       made to the current processes by July 30, 2014.

       Evaluation of Management’s Response. Management’s proposed actions are
       responsive to our recommendation. Therefore, we consider the recommendation
       resolved and will close it upon receipt and verification of those actions.




REPORT NO. IG-14-016                                                                                     21
                                                                                         RESULTS



     Recommendation 9. Determine the appropriate universe of other sources of
     overpayment information outside of recapture audits, identify the parties who would
     possess that information, and coordinate with those parties to ensure they are aware of
     NASA’s reporting requirements and their responsibility for tracking and communicating
     appropriate information to the OCFO.

        Management’s Response. The CFO partially concurred, stating NASA will expand
        communication to include other appropriate parties and identify potential sources
        using the examples provided by OMB no later than September 30, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of those actions.

     Recommendation 10. Determine how overpayment data can be obtained in the most
     efficient manner (manual or automated) and develop the processes necessary to collect
     and accurately report the data.

        Management’s Response. The CFO concurred, stating her office will make
        refinements to the current processes and will coordinate with the appropriate parties
        to determine the most cost-effective approach by September 30, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of those actions.




22                                                                          REPORT NO. IG-14-016
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from August 2013 through March 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   To determine whether NASA complied with IPIA, we reviewed applicable laws and
   regulations and interviewed various personnel including, but not limited to, those from
   the OCFO and its contractor responsible for conducting the IPIA risk assessment and
   testing activities on NASA’s behalf. We reviewed the IPIA contractor’s work papers and
   its final reports. We also reviewed the IPIA section of the AFR, including the part on
   recapture audits, and supporting documentation. Based on our reviews and interviews,
   we determined whether NASA complied with the requirements of IPIA and evaluated the
   completeness and accuracy of NASA’s reporting of IPIA data, its performance in
   reducing and recapturing improper payments, and its implementation of
   recommendations made by the OIG in its improper payments audit reports issued in
   March 2013 and May 2012.

   Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
   course of our audit work:

         Public Law 111-204, Improper Payments Elimination and Recovery Act of 2010
          (IPERA)

         Public Law 107-300, Improper Payments Information Act of 2002 (IPIA)

         Public Law 104-156, Single Audit Act Amendments of 1996

         Executive Order 13520, “Reducing Improper Payments and Eliminating Waste in
          Federal Programs,” November 2009

         OMB Circular No. A-136, “Financial Reporting Requirements,” October 21, 2013

         OMB Memorandum M-12-11, “Reducing Improper Payments through the ‘Do
          Not Pay List,’” April 12, 2012

         OMB Memorandum M-11-16, “Issuance of Revised Parts I and II to Appendix C
          of OMB Circular A-123,” April 14, 2011



REPORT NO. IG-14-016                                                                           23
                                                                                   APPENDIX A



           OMB Memorandum M-11-04, “Increasing Efforts to Recapture Improper
            Payments by Intensifying and Expanding Payment Recapture Audits,”
            November 16, 2010

           OMB Memorandum M-10-13, “Issuance of Part III to OMB Circular A-123,
            Appendix C,” March 22, 2010

           OMB Circular No. A-133, “Audits of States, Local Governments and Non-Profit
            Organizations," June 26, 2007

           NASA Procedural Requirements (NPR) 9010.3, “Financial Management Internal
            Control,” September 30, 2008

           NPR 9050.4, “Cash Management and Improper Payments,” September 30, 2008

           NASA OCFO, “Payment Recapture Audit Program Administration Guidance,”
            June 25, 2013

           NASA OCFO, “Procedural Guidance, Improper Payments Information Act and
            OMB Circular A-123, Appendix C: Requirements for Effective Measurement and
            Remediation of Improper Payments,” November 2012

     Use of Computer-Processed Data. We used computer-processed data that was
     extracted from NASA’s accounting system of the FYs 2012 and 2011 disbursements that
     was used by NASA’s IPIA and recapture audit contractors. Although we did not
     independently verify the reliability of all this information, we compared it with other
     available supporting documents to determine data consistency and reasonableness. From
     these efforts, we believe the information we obtained is sufficiently reliable for this
     report.

Review of Internal Controls

     We reviewed and evaluated the internal controls associated with NASA’s sampling,
     testing, and reporting of improper payment information and the Agency’s efforts to
     reduce and recapture improper payments. We found internal control deficiencies as
     discussed in this report. Our recommendations, if implemented, should correct the
     deficiencies we identified.




24                                                                        REPORT NO. IG-14-016
APPENDIX A



Prior Coverage

   During the last 5 years, the NASA OIG and the Government Accountability Office
   (GAO) have issued numerous reports of particular relevance to the subject of this report.
   Unrestricted reports can be accessed over the Internet at
   http://oig.nasa.gov/audits/reports/FY14/index (NASA OIG) and http://www.gao.gov
   (GAO).

   NASA Office of Inspector General

   “NASA’s Compliance with the Improper Payments Information Act for Fiscal Year
   2012” (IG-13-011, March 14, 2013)

   “Audit of NASA Grant Awarded to the HudsonAlpha Institute for Biotechnology”
   (IG-12-019, August 3, 2012)

   “Audit of NASA Grants Awarded to the Philadelphia College Opportunity Resources for
   Education” (IG-12-018, July 26, 2012)

   “Audit of NASA Grants Awarded to The Alabama Science Center Exhibit Commission’s
   U.S. Space and Rocket Center” (IG-12-016, June 22, 2012)

   “NASA’s Efforts to Identify, Report, and Recapture Improper Payments” (IG-12-015,
   May 1, 2012)

   “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

   Government Accountability Office

   “Significant Improvements Needed in Efforts to Address Improper Payment
   Requirement," (GAO-13-227, May 13, 2013)

   “Improper Payments: Remaining Challenges and Strategies for Governmentwide
   Reduction Efforts” (GAO-12-573T, March 28, 2012)

   “Improper Payments: Moving Forward with Governmentwide Reduction Strategies”
   (GAO-12-405T, February 7, 2012)

   “Improper Payments: Recent Efforts to Address Improper Payments and Remaining
   Challenges” (GAO-11-575T, April 15, 2011)

   “Improper Payments: Status of Fiscal Year 2010 Federal Improper Payments Reporting”
   (GAO-11-443R, March 25, 2011)

   “Improper Payments: Progress Made But Challenges Remain in Estimating and Reducing
   Improper Payments” (GAO-09-628T, April 22, 2009)



REPORT NO. IG-14-016                                                                           25
                      APPENDIX B




     MANAGEMENT COMMENTS




26            REPORT NO. IG-14-016
APPENDIX B




REPORT IG-14-016   27
             APPENDIX B




28   REPORT NO. IG-14-016
APPENDIX C




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Deputy Administrator
   Chief of Staff
   Chief Financial Officer
   Deputy Chief Financial Officer for Finance

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
      Branch Chief, Accountability, Performance and Reporting
   Government Accountability Office
      Managing Director, Office of Financial Management and Assurance
          Director, Office of Financial Management and Assurance
      Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Operations
   House Committee on Science, Space, and Technology
      Subcommittee on Oversight
      Subcommittee on Space




REPORT NO.IG-14-016                                                        29
Major Contributors to the Report:
   Mark Jenson, Director, Financial Management Directorate
   Regina Dull, Project Manager
   Deirdre Beal, Auditor




REPORT NO. IG-14-016                                         31
                                                                                   APRIL 15, 2014
                                                                    REPORT NO. IG-14-016




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
